No. 21-231

In The Supreme Court of The United States
Julie Ellen Wartluft, fka Julie Ellen Bartels, et al.,
v.
The Milton Hershey School, et al.
AFFIDAVIT OF SERVICE
I, Denise Dulong, being eighteen years or older, do certify under penalty of
perjury that the foregoing is true and correct. That, on this, the 1st day of October,
2021, I filed the foregoing with the United States Supreme Court electronically and
forty (40) paper copies via UPS Ground Transportation. I further certify that the
foregoing was served via electronic mail and three (3) copies of the same, via UPS
Ground Transportation, to the following:
Jarad W. Handelman, Esquire
Market Square Plaza 1
7 North Second Street
Suite 1420
Harrisburg, PA 17101
(717) 307-2601
jwh@elliottgreenleaf.com
Counsel for Respondents
Kyle M. Elliott, Esquire
Christine M. Wechsler, Esquire
ELLIOTT GREENLEAF, P.C.
925 Harvest Drive, Suite 300
Blue Bell, PA 19422
(215) 977-1000
kme@elliottgreenleaf.com
CWR@elliottgreenleaf.com
Counsel for Respondents

Denise Dulong
Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
(804) 249-7771 – Facsimile
denise@gibsonmoore.net

For:
John W. Schmehl
Counsel of Record
DILWORTH PAXSON LLP
1500 Market Street
Suite 3500e
Philadelphia, Pa 19102
Telephone: 215-575-7200
Email: Jschmehl@Dilworthlaw.Com
Counsel for Petitioners

Signed and subscribed before me on this the 1st day of October, 2021.

